APPENDIX

1a
APPENDIX A
_________
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
_________
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
EZRALEE J. KELLEY,
Defendant-Appellant.
_________
No. 19-30066
D.C. No.
2:06-cr-00136-LRS-2
_________
Argued and Submitted March 5, 2020
Seattle, Washington
Filed June 15, 2020
_________
Appeal from the United States District Court
for the Eastern District of Washington
Lonny R. Suko, District Judge, Presiding
_________
COUNSEL
Matthew Campbell (argued), Federal Defenders of
Eastern Washington & Idaho, Spokane, Washington,
for Defendant-Appellant.

2a
Richard Barker (argued), and Russell E. Smoot,
Assistant United States Attorneys; William D.
Hyslop, United States Attorney; Untied States
Attorney’s Office, Spokane, Washington; for PlaintiffAppellee.
_________
Before: SANDRA S. IKUTA and RYAN D. NELSON,
Circuit Judges, and SOLOMON OLIVER, JR., *
District Judge.
_________
OPINION
_________
IKUTA, Circuit Judge:
This appeal requires us to address whether the First
Step Act, Pub. L. No. 115-391, 132 Stat. 5194 (2018),
permits a plenary resentencing proceeding in which a
defendant’s career offender status can be
reconsidered. We hold that it does not.
I
In 2010, Congress enacted the Fair Sentencing Act,
Pub. L. No. 111-220, 124 Stat. 2372 (2010), to reduce
the disparate treatment of offenders who dealt crack
cocaine compared to offenders who dealt powder
cocaine, see Dorsey v. United States, 567 U.S. 260,
268–69, 132 S.Ct. 2321, 183 L.Ed.2d 250 (2012).
Before the Fair Sentencing Act, an offense involving
50 or more grams of crack cocaine would be subject to
a statutory sentencing range of 10 years to life in
*

The Honorable Solomon Oliver, Jr., United States District
Judge for the Northern District of Ohio, sitting by designation.

3a
prison, 21 U.S.C. § 841(b)(1)(A)(iii) (2006), and an
offense involving 5 or more grams of crack cocaine
would be subject to a statutory sentencing range of 5
to 40 years in prison, 21 U.S.C. § 841(b)(1)(B)(iii)
(2006). Section 2 of the Fair Sentencing Act amended
these sections so that a higher quantity of drugs would
be needed to trigger the same sentences; thus, an
offense involving 280 or more grams (rather than 50
or more grams) of crack cocaine was subject to a
sentence of 10 years to life in prison, and an offense
involving 28 or more grams (rather than 5 or more
grams) of crack cocaine was subject to a sentence of 5
to 40 years in prison. See Fair Sentencing Act § 2.1
These changes did not apply to offenders whose
convictions became final before Congress enacted the
Fair Sentencing Act. See Dorsey, 567 U.S. at 280–81,
132 S.Ct. 2321.
Eight years after the Fair Sentencing Act, Congress
enacted the First Step Act to implement various
criminal-justice reforms. Section 404 of the First Step
Act addresses how the Fair Sentencing Act applies to
offenders whose sentences were final before Congress
enacted the Fair Sentencing Act. It states, in
pertinent part:
A court that imposed a sentence for a covered
offense may, on motion of the defendant, . . .
impose a reduced sentence as if sections 2 and
3 of the Fair Sentencing Act . . . were in effect
at the time the covered offense was committed.

1

Section 3 of the Fair Sentencing Act eliminated mandatory
minimum sentences for simple possession of crack cocaine.

4a
First Step Act § 404(b). A covered offense is “a
violation of a Federal criminal statute, the statutory
penalties for which were modified by section 2 or 3 of
the Fair Sentencing Act . . . that was committed before
August 3, 2010.” First Step Act § 404(a). Section
404(c) provides that a court’s decision to reduce a
sentence under the First Step Act is discretionary,
stating that “[n]othing in this section shall be
construed to require a court to reduce any sentence
pursuant to this section.” First Step Act § 404(c).2 In
other words, the First Step Act permits a defendant
who was sentenced for a crack cocaine offense to move
the court to “impose a reduced sentence as if” the First
Step Act had been in effect at the time the defendant
committed the offense, and it gives the district court
discretion to do so.
II
In 2007, three years before the Fair Sentencing Act
was enacted, Ezralee Kelley pleaded guilty to one
count of conspiracy to distribute 50 or more grams of
cocaine base in violation of 21 U.S.C. §§ 841(a)(1),
(b)(1)(A), 846 (2006). Her offense involved 262.2

2

Section 404(c) provides, in full:
LIMITATIONS.—No court shall entertain a motion made
under this section to reduce a sentence if the sentence was
previously imposed or previously reduced in accordance with
the amendments made by sections 2 and 3 of the Fair
Sentencing Act of 2010 (Public Law 111-220; 124 Stat. 2372)
or if a previous motion made under this section to reduce the
sentence was, after the date of enactment of this Act, denied
after a complete review of the motion on the merits. Nothing
in this section shall be construed to require a court to reduce
any sentence pursuant to this section.

5a
grams of a mixture containing 162.5 grams of cocaine
base. In the plea agreement, the government and
Kelley agreed that an appropriate sentence would
range from 180 to 262 months in prison followed by
five years of supervised release.
The United States Federal Sentencing Guidelines
are the “starting point and the initial benchmark” for
the sentencing process. Gall v. United States, 552
U.S. 38, 49, 128 S.Ct. 586, 169 L.Ed.2d 445 (2007).
Before Kelley was sentenced, the probation officer
prepared a Presentence Investigation Report (PSR),
which proceeded through the steps required by the
then-current 2006 Guidelines. See U.S.S.G. § 1B1.1
(2006) (Application Instructions).
Pursuant to the Guidelines, the PSR first
determined that the applicable offense Guideline was
§ 2D1.1 (Unlawful Manufacturing, Importing,
Exporting, or Trafficking). See U.S.S.G. § 2D1.1
(2006). Applying this Guideline, the PSR calculated
Kelley’s offense level, that is, the number of points
associated with Kelley’s criminal activity. Based on
the quantity of cocaine base involved, Kelley’s base
offense level (as determined by reference to the Drug
Quantity Table) was 34. See U.S.S.G. § 2D1.1(c)(3)
(2006).
The PSR then calculated the applicable adjustments
to the base offense level.
Because of Kelley’s
acceptance of responsibility, the base offense level was
adjusted downward by three points. See U.S.S.G.
§ 3E1.1 (2006). This gave her an adjusted offense level
of 31.

6a
Next, the PSR determined applicable adjustments
under Chapter 4. See U.S.S.G. § 4 (2006) (Criminal
History and Criminal Livelihood). Kelley had two
Washington convictions for conspiracy to distribute a
controlled substance.
See Wash. Rev. Code
§§ 69.50.407, 69.50.401(A). These offenses, combined
with her federal conviction and age, made her a career
offender within the meaning of U.S.S.G. § 4B1.1
(2006). 3 Under Chapter 4, a career offender who
commits a crime with a statutory maximum sentence
of life imprisonment automatically has an offense
level of 37 before accounting for any acceptance of
responsibility adjustment. U.S.S.G. § 4B1.1(b) (2006).
Because the statutory maximum for Kelley’s offense
of conviction was life in prison at that time, she was
assigned an offense level of 37. After reducing
Kelley’s offense level by three points for acceptance of
responsibility, the PSR determined that Kelley had a
total offense level of 34.
The PSR then determined Kelley’s criminal history
category under Chapter 4.
This category is
determined by adding points for each qualifying prior
sentence according to the instructions in U.S.S.G.
§ 4A1.1 (2006). Kelley’s record would have put her in
3

Section 4B1.1 provides:
(a) A defendant is a career offender if (1) the defendant was
at least eighteen years old at the time the defendant
committed the instant offense of conviction; (2) the instant
offense of conviction is a felony that is either a crime of
violence or a controlled substance offense; and (3) the
defendant has at least two prior felony convictions of either a
crime of violence or a controlled substance offense.
U.S.S.G. § 4B1.1 (2006).

7a
Criminal History Category IV. But as a career
offender, Kelley was automatically assigned to
Category VI. U.S.S.G. § 4B1.1(b) (2006).
Finally, the PSR applied the Sentencing Table,
U.S.S.G. Chapter 5, Part A (2006). Based on Kelley’s
total offense level of 34, her assignment to Criminal
History Category VI, and the statutory mandatory
minimum, the Guidelines range was 262 to 327
months of imprisonment. The PSR also stated that
the parties had agreed to a sentence between 180 and
262 months in the plea agreement. Neither party
objected to the PSR.
The district court adopted the PSR but imposed a
below-Guidelines sentence of 192 months in prison
followed by five years of supervised release. The court
stated it was imposing a below-Guidelines sentence
within the “range expressly permitted by [the] terms
of [the] Plea Agreement” based on its consideration of
the sentencing factors set forth in 18 U.S.C. § 3553(a).
After the First Step Act was enacted in 2018, Kelley
moved for a reduced sentence. Kelley argued that
under the Fair Sentencing Act’s revised sentencing
ranges, her offense involving 262.2 grams of a mixture
containing crack cocaine would subject her to 5 to 40
years in prison, instead of 10 years to life. See 21
U.S.C. § 841(b)(1)(B)(iii).
Relying on the 2018
Guidelines, which were applicable in 2019, Kelley
argued that her recalculated base offense level (as
determined by reference to the Drug Quantity Table)
was 28, rather than 34. See U.S.S.G. § 2D1.1(c)(6)
(2018). Further, Kelley argued that under a recent
Ninth Circuit opinion, the two prior Washington
offenses giving rise to her career offender status,

8a
Wash. Rev. Code §§ 69.50.407, 69.50.401(A), no longer
qualified as career offender predicates, see United
States v. Brown, 879 F.3d 1043, 1047–48 (9th Cir.
2018) (holding that because the Washington drug
conspiracy statute covers conduct that would not be
covered under federal conspiracy law, Washington
drug conspiracy is not a “controlled substance offense”
under the Guidelines). Therefore, she argued, she
was not a career offender and not subject to any
upward adjustment based on career offender status.
Kelley then argued that with a three level reduction
for acceptance of responsibility, her adjusted offense
level would be 25. Because she would no longer be
designated as a career offender, she would retain the
Criminal History Category IV, instead of being
automatically assigned to Criminal History Category
VI. With an adjusted offense level of 25 and a
Criminal History Category of IV, the Sentencing
Table would give her a Guidelines range of 84 to 105
months. See U.S.S.G. Chapter 5, Part A (2018).
Because Kelley had already served in excess of that
time, she asked for immediate release.
The district court rejected this argument in part.
First, the district court concluded the First Step Act
did not give it authority to conduct a plenary resentencing or reconsider its original sentencing
determinations. Therefore, the court recalculated
Kelley’s Guidelines range as if the Fair Sentencing
Act had been in effect when she was originally
sentenced but without considering other changes in
the law. According to the court, Kelley’s recalculated
Guidelines range dropped from 262–327 months to
188–235 months.
Taking into account Kelley’s
evidence that she had been a model inmate during her

9a
incarceration as a factor under 18 U.S.C. § 3553(a)(1),
the district court exercised its discretion to impose a
reduced term of imprisonment of 180 months.4 Like
Kelley’s original sentence, this term was below
Kelley’s Guidelines range but within the range agreed
to by Kelley and the government in Kelley’s plea
agreement. Kelley appealed.5
III
The only question on appeal is whether the First
Step Act authorizes a plenary resentencing. In other
words, the parties dispute whether a court exercising
its discretion to resentence a defendant under the
First Step Act has the authority to revisit all aspects
of the defendant’s sentence and apply current law,
including our determination in Brown that Kelley’s
two Washington drug offenses are not career offender
predicates.6
As always, we start with the statute’s plain
language. The First Step Act gives a court discretion
to “impose a reduced sentence as if sections 2 and 3 of
4

Because neither party challenges the district court’s
consideration of the § 3553(a) factors, we do not address this
issue. See United States v. Sineneng-Smith, — U.S. —, 140 S.
Ct. 1575, 1579, 206 L.Ed.2d 866 (2020).
5

Although Kelley is now out of prison, her appeal is not moot
because her sentence includes five years of supervised release, a
term that could be reduced by a ruling in her favor on appeal.
See United States v. Verdin, 243 F.3d. 1174, 1178 (9th Cir. 2001).
6

The government does not dispute that if the district court
could consider all current law, Kelley would not be considered a
career offender, see United States v. Brown, 879 F.3d 1043, 1046
(9th Cir. 2018), and her base offense level under the Guidelines
would be 28, see U.S.S.G. § 2D1.1(c)(6) (2018).

10a
the Fair Sentencing Act . . . were in effect at the time
the covered offense was committed.” First Step Act
§ 404(b). The phrase “as if” means “as the case would
be if” some different condition had been in existence,
e.g., “he laughed as if I had said something
annihilatingly funny.” As, Oxford Dictionary of
English
(3d
ed.
2011),
https://www.oed.com/view/Entry/11307#eid38318876.
In other words, the phrase “as if” requires
consideration of a counterfactual situation.
The First Step Act describes the counterfactual
situation as follows: At the time the defendant
committed the covered offense, sections 2 and 3 of the
Fair Sentencing Act were in effect. First Step Act
§ 404(b). In other words, the First Step Act authorizes
the district court to consider the state of the law at the
time the defendant committed the offense, and change
only one variable: the addition of sections 2 and 3 of
the Fair Sentencing Act as part of the legal landscape.
See United States v. Hegwood, 934 F.3d 414, 418 (5th
Cir. 2019) (interpreting the First Step Act as
authorizing a district court to decide “on a new
sentence by placing itself in the time frame of the
original sentencing, altering the relevant legal
landscape only by the changes mandated by the 2010
Fair Sentencing Act”). With this counterfactual
situation in mind, the court must then determine how
changing this single variable would affect the
defendant’s sentence. Then the court may exercise its
discretion to impose a reduced sentence consistent
with that change.
Because the First Step Act asks the court to consider
a counterfactual situation where only a single
variable is altered, it does not authorize the district

11a
court to consider other legal changes that may have
occurred after the defendant committed the offense.
In other words, the First Step Act permits the court to
sentence “as if” parts of the Fair Sentencing Act had
been in place at the time the offense occurred, not “as
if” every subsequent judicial opinion had been
rendered or every subsequent statute had been
enacted.
Accordingly, we hold that a district court that
decides to exercise its discretion under the First Step
Act must: (1) place itself in the counterfactual
situation where all the applicable laws that existed at
the time the covered offense was committed are in
place, making only the changes required by sections 2
and 3 of the Fair Sentencing Act; and (2) determine
the appropriate sentence under this counterfactual
legal regime.
In reaching this conclusion, we deepen a circuit
split. We join the well-reasoned opinions of the Fifth
and Sixth Circuits, which have interpreted the First
Step Act as not permitting a plenary resentencing
hearing but instead allowing a court to engage in the
limited counterfactual inquiry we have described. See
Hegwood, 934 F.3d at 418; United States v. Smith, 958
F.3d 494, 498 (6th Cir. 2020). The Fourth Circuit, by
contrast, has concluded that the First Step Act
permits a court to consider at least some intervening
changes in case law in recalculating a prisoner’s
sentence. See United States v. Chambers, 956 F.3d
667, 672–73 (4th Cir. 2020). Despite recognizing that
the “as if” clause “directs the sentencing court to apply
section 2 or 3 of the Fair Sentencing Act, and not some
other section, or some other statute,” Chambers
nevertheless held that “there is no limiting language

12a
to preclude the court from applying intervening case
law,” and therefore a court is free to consider
intervening changes in case law in recalculating a
prisoner’s sentence. Id. at 672. 7 We reject this
conclusion because it fails to account for the First Step
Act’s “limiting language,” namely, the “as if” clause,
which expressly limits the scope of the counterfactual
situation a court may consider. Neither the First Step
Act, nor any other statute identified by Chambers,
authorizes a court to reduce a sentence “as if” changes
in law other than sections 2 and 3 of the Fair
Sentencing Act had been in effect; therefore, a court
has no authority to do so. See 18 U.S.C. § 3582(c).
IV
In opposing this conclusion, Kelley raises two
primary arguments.
A
First, Kelley argues that a proper analysis of 18
U.S.C. § 3582(c), which addresses modifications of
imposed terms of imprisonment, leads to the
conclusion that the First Step Act requires plenary
resentencing. Section 3582(c) provides that a court
generally may “not modify a term of imprisonment

7

The Fourth Circuit distinguished Hegwood and further
justified its conclusion that its intervening case law, United
States v. Simmons, 649 F.3d 237 (4th Cir. 2011), applied in the
First Step Act resentencing on the ground that Simmons applied
to cases pending on collateral review. See Chambers, 956 F.3d
at 669 (citing Miller v. United States, 735 F.3d 141, 146 (4th Cir.
2013)). Given that the applicability of precedent to habeas
proceedings is not relevant to a sentence reduction under the
First Step Act, we find this reasoning unpersuasive.

13a
once it has been imposed,” subject to certain
exceptions, two of which are relevant here. The first
exception, § 3582(c)(1)(B), states that “the court may
modify an imposed term of imprisonment to the extent
otherwise expressly permitted by statute or by Rule
35 of the Federal Rules of Criminal Procedure.”8 The
second exception, § 3582(c)(2), states that if a
defendant “has been sentenced to a term of
imprisonment based on a sentencing range that has
subsequently been lowered by the Sentencing
Commission,” then the court may reduce the term of
imprisonment “if such a reduction is consistent with
applicable policy statements issued by the Sentencing
Commission.”
Kelley’s argument proceeds in several steps. First,
Kelley argues that the First Step Act is not a standalone statute, but is implemented through
§ 3582(c)(1)(B). Second, Kelley argues that because
§ 3582(c)(2) contains language permitting a court to
apply a Guidelines change to previously sentenced
offenders only when the Sentencing Commission
issues an applicable policy statement, and
§ 3582(c)(1)(B) contains no such language, we should
read § 3582(c)(1)(B) as requiring a plenary
resentencing. Therefore, Kelley concludes, the First
Step Act also requires plenary resentencing.

8

Subject to certain requirements, Rule 35 of the Federal Rules
of Criminal Procedure authorizes a court to correct an error in
sentencing that “resulted from arithmetical, technical, or other
clear error,” Fed. R. Crim. P. 35(a), and to reduce a sentence
when the defendant has provided substantial assistance to the
government, Fed. R. Crim. P. 35(b).

14a
We reject this argument because § 3582(c)(1)(B)
does not “implement” the First Step Act. Although
both § 3582(c) and the First Step Act relate to a court’s
authority to revise sentences due to changes in the
law, § 3582(c)(1)(B) is a general provision which
merely acknowledges that courts may modify
sentences “to the extent otherwise expressly
permitted by statute” or rule. By contrast, the First
Step Act expressly permits a specific type of sentence
reduction, and we interpret and implement such an
independent congressional enactment on its own
terms. See Morton v. Mancari, 417 U.S. 535, 550–51,
94 S.Ct. 2474, 41 L.Ed.2d 290 (1974) (“Where there is
no clear intention otherwise, a specific statute will not
be controlled . . . by a general one.”). Moreover, we
disagree with Kelley’s argument that § 3582(c)(1)(B)
requires a plenary resentencing.
Because
§ 3582(c)(1)(B) merely authorizes a court to
implement another statute allowing for a sentence
modification, it does no more than point us back to
where we began: the First Step Act’s text, which does
not permit a plenary resentencing.
B
Second, Kelley argues that the use of the word
“impose” in the First Step Act’s statement that a
district court may “impose a reduced sentence as if
sections 2 and 3 of the Fair Sentencing Act of 2010 . . .
were in effect at the time the covered offense was
committed,” First Step Act § 404(b) (emphasis added),
signals Congress’s intent to permit a plenary
resentencing. According to Kelley, whenever a court
imposes a sentence, it is required to make certain
determinations based on the Sentencing Guidelines
and statutory law. See 18 U.S.C. § 3553(a)(4); 18

15a
U.S.C. § 3582(a). Kelley argues that if a court
resentences a defendant under the First Step Act but
ignores
intervening
caselaw
regarding
the
construction of the Guidelines, it fails to calculate the
applicable Guidelines range correctly. See Gall v.
United States, 552 U.S. 38, 49, 128 S.Ct. 586, 169
L.Ed.2d 445 (2007) (“[A] district court should begin all
sentencing proceedings by correctly calculating the
applicable Guidelines range.”). Therefore, when a
district court “imposes” a sentence under the First
Step Act, Kelley argues, it must likewise recalculate
the applicable Guidelines range and reconsider the
§ 3553(a) factors under current law.
We disagree. Although Congress has used the term
“impose” in describing the initial imposition of a
sentence, Kelley has cited no statute or case
establishing that when Congress uses the word
“impose” in any resentencing context, Congress
necessarily means to authorize a plenary
resentencing. 9
Because “[t]he best evidence of
[congressional] purpose is the statutory text,” W. Va.
Univ. Hosps., Inc. v. Casey, 499 U.S. 83, 98, 111 S.Ct.
1138, 113 L.Ed.2d 68 (1991), we are bound by the
9

Kelley points to § 3582(c)(1)(B), which permits courts (in
certain circumstances) to “modify an imposed term of
imprisonment.” Kelley claims that the use of “modify” and
“imposed” in this section implies that modifying a previously
imposed sentence is a more limited exercise than imposing a
sentence in the first place. This argument falls far short of
establishing that Congress’s use of the term “imposed”
necessarily means that Congress intended to require a plenary
resentencing notwithstanding the limiting language of the First
Step Act. Kelley’s reference to other statutes using the term
“impose” in the sentencing context, see 18 U.S.C. §§ 3553, 3661,
are equally unpersuasive.

16a
language of the First Step Act, which plainly indicates
that Congress intended to limit courts engaging in
resentencing to considering a single changed variable.
In a related context, the Supreme Court rejected the
rule that a district court must always consider
intervening caselaw whenever it revisits a sentence.
See Dillon v. United States, 560 U.S. 817, 826, 130
S.Ct. 2683, 177 L.Ed.2d 271 (2010). Dillon held that
§ 3582(c)(2)’s text permitting courts to “reduce the
term of imprisonment” consistent with the Sentencing
Commission’s policy statements, “together with its
narrow scope, shows that Congress intended to
authorize only a limited adjustment to an otherwise
final sentence and not a plenary resentencing
proceeding.” Id. The Supreme Court rejected the
argument that the district court should have the
discretion to correct “any mistakes committed at the
initial sentencing.” Id. at 831, 130 S.Ct. 2683.
Because the “aspects of his sentence” that the
defendant in Dillon sought to correct “were not
affected by the Commission’s amendment” at issue,
they were “outside the scope of the proceeding
authorized by § 3582(c)(2), and the District Court
properly declined to address them.” Id. In other
words,
Dillon
concluded
that
congressional
authorization to reduce a term of imprisonment does
not necessarily carry with it authorization to correct
any errors in the original sentencing proceeding.
Relying on this conclusion, Dillon adopted a twostep approach to a § 3582(c)(2) resentencing. Id. at
827, 130 S.Ct. 2683. First, a court determines the
Guidelines range applicable “had the relevant
amendment been in effect at the time of the initial
sentencing,” leaving “all other guideline application

17a
decisions unaffected.” Id. (citation omitted). Second,
it considers the § 3553(a) statutory sentencing factors
and determines, “whether, in its discretion, the
reduction . . is warranted.” Id. This approach, which
requires the court to consider only a single changed
variable, is similar to the one we adopt today.
Kelley’s argument that any sentencing under the
First Step Act must be plenary not only contradicts
the statutory text, but also lacks plausibility in
context. The import of the First Step Act is to give
offenders the benefit of the Fair Sentencing Act, even
though their sentences were final before it was
enacted. And the point of the Fair Sentencing Act was
to lessen the disparity between sentences for crack
cocaine offenses and sentences for powder cocaine
offenses.
But Kelley’s interpretation would put
defendants convicted of crack cocaine offenses in a far
better position than defendants convicted of other
drug offenses: The crack cocaine defendants could
have their career offender statuses reevaluated, and
be eligible for other positive changes in their
Guidelines calculations, while other criminal
defendants would be deprived of such a benefit. There
is no indication in the statute that Congress intended
this limited class of crack cocaine offenders to enjoy
such a windfall. Further, Kelley’s interpretation
would arbitrarily deprive some defendants of the
“reduced sentence” the First Step Act permits: If the
court were bound to engage in a plenary
reconsideration of all changes in the law, it is possible
that the defendant would be subject to a higher
Guidelines range, notwithstanding the Fair
Sentencing Act’s effect. While the First Step Act does
not permit a court to enhance a defendant’s sentence,

18a
an increased Guidelines range might preclude the
court from granting the defendant a reduced sentence.
See First Step Act § 404(b). Our straightforward
interpretation better fits the language of the statute
and avoids these incongruous results.
V
Given our conclusion that the First Step Act does not
authorize plenary resentencing, the district court
properly exercised its discretion. It acknowledged
that the First Step Act did not authorize it to conduct
a plenary resentencing of Kelley and instead
recalculated Kelley’s Guidelines range to be 188–235
months. Although the court did not provide its
calculations, this recalculation confirms that the court
correctly applied the applicable laws existing when
Kelley’s covered offense was committed, “as if” the
Fair Sentencing Act was also in existence. Because
Kelley’s offense involved 262.2 grams of a mixture
containing crack cocaine, she would have been subject
to 5 to 40 years in prison, instead of ten years to life
in prison, had the Fair Sentencing Act been in effect
when she was originally sentenced. Fair Sentencing
Act § 2. This change would not affect her base offense
level, which under the version of § 2D1.1 then in effect
would have remained at 34. See U.S.S.G. § 2D1.1
(2006). Nor would the Fair Sentencing Act affect her
designation as a career offender. U.S.S.G. § 4B1.1
(2006). However, Kelley would no longer be subject to
the automatic adjustment to an offense level of 37 for
offenders who commit a crime with a statutory
maximum sentence of life imprisonment.
See
U.S.S.G. § 4B1.1(b) (2006). Instead, her offense level
would remain at 34. Id. (a career offender who
commits an offense with a statutory maximum

19a
sentence of 25 years or more, but less than life, is
subject to an offense level of 34). After her three level
downward
adjustment
for
acceptance
of
responsibility, Kelley’s final offense level would be 31.
Based on that and her criminal history category of VI,
her recalculated Guidelines range would be 188 to 235
months, as the district court determined. The district
court then proceeded to the second step of the
resentencing and exercised its discretion to impose a
reduced term of imprisonment of 180 months. We see
no error in the district court’s approach.
AFFIRMED.

20a
APPENDIX B
_________
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WASHINGTON
_________
UNITED STATES OF AMERICA,
Plaintiff,
v.
EZRALEE KELLEY,
Defendant.
_________
No. 2:06-CR-00136-LRS-2
_________
March 27, 2019
_________
MEMORANDUM OPINION
_________
BEFORE THE COURT is Defendant’s Motion For
Imposition Of A Reduced Sentence Pursuant To
Section 404 Of The First Step Act (ECF No. 180).
The Government concedes that Defendant’s 2007
conviction for Conspiracy To Distribute 50 Grams Or
More Of Cocaine Base, in violation of 21 U.S.C.
§§ 841(a)(1), (b)(1)(A) and 846, is covered by Section
404 of The First Step Act of 2018. As a result, the
Government acknowledges Defendant’s statutory
mandatory minimum term of imprisonment has been
reduced from 10 years to five years, and her maximum

21a
term of imprisonment has been reduced from life to 40
years.1
This court found Defendant qualified as a career
offender under the Sentencing Guidelines (U.S.S.G.
§4B1.1) and therefore, that her Total Offense Level
was 34 after a three level reduction for acceptance of
responsibility.
This resulted in a Sentencing
Guidelines range of 262 to 327 months imprisonment
because Defendant’s career offender status put her in
Criminal History Category VI. Pursuant to the Fed.
R. Crim. P. 11(c)(1)(C) Plea Agreement, however, the
parties agreed to a guidelines range of 180 to 262
months. (ECF No. 126). The court sentenced
Defendant to 192 months. (ECF No. 146).
Defendant contends that under current law, she no
longer qualifies as a career offender and therefore, her
Base Offense Level would now be 28 based on a drug
quantity of at least 196 grams but less than 280 grams
of Cocaine Base. U.S.S.G. §2D1.1(c)(6). With a three
level reduction for acceptance of responsibility and a
Criminal History Category of IV, Defendant says her
Sentencing Guidelines range would now be 84-105
months.

1

Section 404 of the First Step Act makes retroactive Sections
2 and 3 of the Fair Sentencing Act of 2010. Section 2 of the Fair
Sentencing Act increased the drug amounts triggering
mandatory minimums for crack trafficking offenses from 5 grams
to 28 grams with respect to the 5-year minimum, and from 50
grams to 280 grams with respect to the 10-year minimum.
Section 3 of the Fair Sentencing Act eliminated the 5-year
mandatory minimum sentence for simple possession of crack
cocaine. Dorsey v. United States, 567 U.S. 260, 269, 132 S.Ct.
2321 (2012).

22a
The Government disagrees. It contends Defendant
is not entitled to plenary re-sentencing that would
eliminate her career offender status. According to the
Government,
because
Defendant’s
statutory
maximum term of imprisonment is now 40 years
instead of life, her career offender Base Offense Level
is reduced to 34 pursuant to U.S.S.G. §4B1.1(b)(2).
With a three level reduction for acceptance of
responsibility, the Government says Defendant’s
Total Offense Level is now 31, resulting in a
Sentencing Guidelines range of 188-235 months based
on a Criminal History Category of VI.
The court finds Defendant is not entitled to plenary
re-sentencing under the First Step Act. 18 U.S.C.
§3582(c) is the procedural vehicle through which this
court may modify an imposed term of imprisonment.
18 U.S.C. §3582(c)(l)(B) authorizes the court to
“modify an imposed term of imprisonment to the
extent otherwise expressly permitted by statute.”
Neither the Fair Sentencing Act or the First Step Act
“expressly” provide for plenary re-sentencing or for
reconsideration
of
original
sentencing
determinations. United States v. Potts, 2019 WL
1059837 (S.D. Fla. March 6, 2019) at *2. The First
Step Act allows the court only to “impose a reduced
sentence” as if the Fair Sentencing Act’s increased
cocaine base requirements “were in effect at the time
the covered offense was committed.” Id., citing Pub.
L. No. 115-391, 132 Stat. 5194. Potts, the court
concluded that although the defendant was eligible for
a reduced sentence under the Fair Sentencing Act, he
was not entitled to a full re-sentencing and all other
determinations made at the time of his sentencing,
including his designation as a career offender,

23a
remained unchanged. Id. at *3. See also United
States v. Sampson, ____F.Supp.3d ____, 2019
WL 1141528 (W.D.N.Y. March 13, 2019) at *2, and
United States v. Davis, 2019 WL 1054554 (W.D.N.Y.
March 6, 2019) at *2 (First Step Act “contemplates a
recalculation of a defendant’s Guidelines numbers
under the Fair Sentencing Act” and “[n]owhere does
[it] expressly permit . . . plenary resentencing or
sentencing anew . . . .”
Relief under the First Step Act is discretionary. The
Act at §404(c) provides that “[n]othing in this section
shall be construed to require a court to reduce any
sentence pursuant to this section.” The 192 months
terms of imprisonment imposed by this court falls
within
Defendant’s
recalculated
Sentencing
Guidelines range (188 to 235 months) and within the
range agreed to by the parties in their 11(c)(1)(C) Plea
Agreement (180 to 262 months). Defendant is entitled
to benefit from passage of The First Step Act which
recognizes that individuals convicted and sentenced
prior to passage of the Fair Sentencing Act of 2010
were also subject to disproportionately severe
penalties for crack cocaine offenses. Furthermore,
Defendant has presented evidence that she has been
a model inmate during her incarceration, maintaining
an excellent work record, earning her GED, and
taking classes to improve her employment prospects
outside of prison, improve her health, and make her a
better parent. (See Attachment A to ECF No. 180).
This is a factor- “history and characteristics of the
defendant” pursuant to 18 U.S.C. §3553(a)(l) - which
the court and the Sentencing Commission believe the

24a
court is entitled to consider, even though this is not a
plenary re-sentencing of the Defendant.2
Accordingly, the court will reduce Defendant’s term
of imprisonment from 192 months to 180 months, a
term that falls within the range agreed to by the
parties in their 11(c)(1)(C) Plea Agreement.3
The court will enter an order (Form AO247)
consistent with this Memorandum Opinion. Copies of
Form AO427 and this Memorandum Opinion will be
provided to counsel of record, to the U.S. Probation
Office, and to the U.S. Bureau of Prisons.
DATED this

27th

day of March, 2019.

s/ Lonny R. Suko
LONNY R. SUKO
Senior United States District Judge

2

https://www.ussc.gov/sites/default/files/pdf/training/news
letters/2019-special_FIRST-STEP-Act.pdf at p. 8
3

The disparity in the reduction received by Defendant Kelley
as compared to the reduction received by Co-Defendant Jamonte
Davidson, an individual with a similar record and found guilty of
similar conduct, is justified because of the evidence of Defendant
Kelley’s post-offense rehabilitation.

25a
APPENDIX C
_________
UNITED STATES DISTRICT COURT
for the
EASTERN DISTRICT OF WASHINGTON
_________
UNITED STATES OF AMERICA,
v.
EZRALEE J. KELLEY,
_________
Case No. 2:06-CR-00136-002
USM No. 11563-023
_________
Filed: March 27, 2019
_________
Date of Previous Judgment: January 25, 2008
_________
Defendant’s Attorney: Christian J. Phelps
_________
ORDER FOR SENTENCE REDUCTION
PURSUANT TO SECTION 404 OF THE
FIRST STEP ACT OF 2018
_________
Upon motion of , the defendant
the Director of
the Bureau of Prisons
the attorney for the
Government, or
the Court for a reduced sentence
based on the statutory penalties which were modified
by sections 2 or 3 of the Fair Sentencing Act of 2010
(Public Law 111-220; 124 Stat. 2372), as if sections 2
and 3 of the Fair Sentencing Act of 2010 were in effect

26a
at the time defendant’s offense was committed.
Having considered such motion, and taking into
account the First Step Act of 2018,
IT IS ORDERED that the motion is:
DENIED
GRANTED and the defendant’s
previously imposed sentence of imprisonment (as
reflected in the last judgment issued) of
is reduced to
.
I. COURT DETERMINATION OF SENTENCING
PURSUANT TO FIRST STEP ACT OF 2018:
Previous Sentence Imposed: 192 months
Amended Sentence: 180 months
Previous Supervised Release Term Imposed: 5 years
Amended Supervised Release Term: 5 years
Previous Underlying Sentence Imposed:
Amended Underlying Sentence:
II.

SENTENCE
TERMS:

RELATIVE

TO

AMENDED

Conditions of supervised release set forth in
judgment are to remain in effect.
Conditions of supervised release set forth in
judgment are to remain in effect, with the
following modifications:

27a
II. ADDITIONAL COMMENTS:
Waiver of Appearance of Defendant
resentencing hearing (attached).

for

Except as provided above, all provisions of the
judgment dated 01/25/2008 shall remain in effect.
IT IS SO ORDERED.
Order Date: March 27, 2019

/s/ Lonny R. Suko
Judge’s Signature
Lonny R. Suko

28a
APPENDIX D
_________
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
_________
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
EZRALEE J. KELLEY,
Defendant-Appellant.
_________
No. 19-30066
D.C. No.
2:06-cr-00136-LRS-2
Eastern District of Washington, Spokane
_________
Filed November 9, 2020
_________
ORDER
_________
Before: IKUTA and R. NELSON, Circuit Judges,
and OLIVER,* District Judge.
_________

*

The Honorable Solomon Oliver, Jr., United States District
Judge for the Northern District of Ohio, sitting by designation.

29a
The panel has unanimously voted to deny
appellant’s petition for panel rehearing. Judge Ikuta
and Judge Nelson voted to deny the petition for
rehearing en banc and Judge Oliver so recommended.
The petition for rehearing en banc was circulated to
the judges of the court, and no judge requested a vote
for en banc consideration.
The petition for rehearing and the petition for
rehearing en banc (Dkt. 39) are DENIED.

